     Department of Homeland Security

     ��������������������������



    FEMA Deployed the Appropriate Number of 

  Community Relations Employees in Response to 

     Hurricane Irene and Tropical Storm Lee 





OIG-13-94                                 May 2013

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 I www.oig.dhs.gov



                              May 31, 2013

MEMORANDUM FOR:              Stephanie Tennyson
                             Director (Acting}
                             Office of External Affairs
                             Federal Emergency Management Agency

                             Robert J. Fenton
                             Assistant Administrator
                             Response Directorate
                             Federal Em       cy Management Agency

FROM:




SUBJECT:                     FEMA Deployed the Appropriate Number of Community
                             Relations Employees in Response to Hurricane Irene and
                             Tropical Storm Lee

Attached for your information is our final letter report, FEMA Deployed the Appropriate
Number of Community Relations Employees in Response to Hurricane Irene and Tropical
Storm Lee. We incorporated the formal comments from the Office of Policy, Program
Analysis and International Affairs in the final report.

The report contains no recommendations.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Kaye McTighe, Director; Adrian Dupree, Audit
Manager; Scott Wrightson, Audit Manager; John Woo, Auditor-in-Charge; Ayana Henry,
Program Analyst; Aaron Naas, Program Analyst; and Joshua Wilshere, Auditor.
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Please call me with any questions, or your staff may contact Kaye McTighe, Director,
   Office of Emergency Management Oversight, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                               2                                       OIG-13-94
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   The Federal Emergency Management Agency (FEMA) deploys staff and resources to
   assist in disaster response and recovery efforts. This includes establishing temporary
   Federal multiagency coordination centers, known as Joint Field Offices (JFOs), to
   facilitate field-level activities near the incident site. The FEMA Administrator appoints a
   Federal Coordinating Officer (FCO) to manage the JFO’s operations. JFO staffs do not
   manage on-scene operations; they support on-scene efforts and carry out disaster
   response and recovery programs. At each JFO, the FCO strives to minimize costs by
   closely managing FEMA Disaster Assistance Employee (DAE) staffing levels.

   In late August 2011, Hurricane Irene made landfall in Puerto Rico and again over eastern
   North Carolina’s Outer Banks. While traveling up the Atlantic coastline into Vermont,
   Hurricane Irene caused at least 34 fatalities and disrupted power to more than a million
   people. In the first 2 weeks of September 2011, Tropical Storm Lee, a slow-moving storm,
   struck many of the same areas affected by Hurricane Irene and caused severe local
   flooding, including floods of historic proportions. The two events resulted in 21 major
   disaster declarations spanning 14 States, the District of Columbia, and Puerto Rico. In
   response, FEMA opened 12 JFOs and deployed more than 5,060 DAEs.

   The Robert T. Stafford Disaster Relief and Emergency Assistance Act, P.L. 93-288, as
   amended, authorizes FEMA to appoint DAEs as temporary Federal employees for up to
   2 years. DAEs perform activities directly related to specific disasters or emergencies.
   FEMA deploys most DAEs to JFOs, where they provide administrative, financial,
   logistical, and program area support.

   DAEs who perform community relations work serve as a personal resource and
   communications link with disaster survivors. As the first and sometimes only Federal
   responders that disaster survivors may see, DAEs provide the human link to bring
   disaster survivors into the assistance network established to help them in their
   recovery. Community relations personnel assess critical disaster survivor needs; ensure
   that disaster survivors have an understanding of and access to assistance programs; and
   help manage expectations of the local community and disaster survivors. The
   community relations workload is substantial and is often in communities with limited
   English proficiency or areas with large populations of the unemployed, low income, and
   elderly. FEMA policy requires that, as appropriate, community relations personnel start
   executing their mission either in advance of an event or within 12 hours of an Individual
   Assistance declaration. Figure 1 depicts the community relations organization at a JFO.




www.oig.dhs.gov                                 3                                        OIG-13-94
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Figure 1. A JFO’s Community Relations Organization





   Source: FEMA.


   Results of Audit
   The number of DAEs deployed to perform community relations work in response to
   Hurricane Irene and Tropical Storm Lee was appropriate. FEMA generally managed the
   deployments in a manner consistent with achieving efficient JFO operations. We are not
   making any recommendations.

   DAE Deployments for Community Relations Work Were Appropriate

   FEMA deployed a reasonable number of DAEs to perform community relations work,
   given the disasters’ magnitude and number of people affected. Specifically, FEMA
   deployed more than 800 DAEs to perform community relations work in response to
   Hurricane Irene and Tropical Storm Lee. This amount is well within FEMA’s JFO staffing
   level targets and compares favorably with the total number of DAEs deployed in
   response to the disasters.


www.oig.dhs.gov                               4                                      OIG-13-94
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   JFO Staffing Level Targets

   The FCO and his or her staff are responsible for identifying and resolving any staffing
   overages. Excluding catastrophic or extremely large disasters such as Hurricane Katrina,
   FEMA defines different targets for three distinct event levels. The appropriate event
   level can be determined within days of a disaster declaration. It is based on the
   disaster’s projected total cost; levels of damage; amount of direct Federal assistance
   needed; level of coordination required among Federal, State, and local resources; and
   extent to which Emergency Support Functions agencies have been activated. For
   example, FEMA estimates that up to 1,200 staff would be deployed to a JFO in the
   aftermath of an Event Level 1 disaster such as Hurricane Ike. Figure 2 depicts JFO
   staffing level targets over time for the three different event levels.

   Figure 2. JFO Staffing Levels by Event Level




   Source: FEMA.

   For most disasters, within 2 weeks of the event, the JFO will be starting up or already
   operational and more detailed staffing level targets can be developed. This is done by
   aggregating the staffing patterns from individual program areas and support functions.
   The aggregate profile is then compared with the profile of similar past disasters.
   Additional adjustments are made as more information becomes available. The following
   key factors influence staffing levels:


www.oig.dhs.gov                               5                                       OIG-13-94
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


       1.	 Scale of assistance. A disaster’s size and depth of impact will influence the
           number of applicants who need assistance and the nature of assistance required.
           For example, a multistate disaster such as Hurricane Irene will affect
           substantially more people than a tornado that destroys a few buildings in one
           small town. These factors will affect the number of staff needed.

       2.	 Level of State participation in program delivery. Each FEMA region is different,
           and so are the States that comprise each region. States tend to have differing
           levels of resources available, approaches to delivering assistance, and staffing
           response efforts.

       3.	 Number of assistance programs activated. The number of FEMA assistance
           programs activated determines program and support staff levels. Public
           Assistance staff levels are determined by the number of applicants and the
           number of anticipated Project Worksheets. Individual Assistance staff levels are
           determined by the number of applicants and whether there is a direct housing
           mission. Mitigation staff levels are determined by the amount of public outreach
           required and whether an affected community participates in the National Flood
           Insurance Program.

       4.	 Transition points. During a JFO’s operation, transition points denote when
           program areas can reduce staff. Staff associated with emergency work such as
           debris removal and emergency protective measures (EPM) are usually
           demobilized at the end of the incident period or response phase; all emergency
           work must be completed within 6 months of the declared disaster. 123 When the
           individual application period ends, reductions in Individual Assistance staff can
           begin unless there is a direct housing mission. Mitigation staff can be reduced
           when all eligible Hazard Mitigation Grant Program applicants have submitted
           their proposals. Reductions in Public Assistance staff should begin when all of
           the small and 90 percent of the large Project Worksheets have been written.4
           Figure 3 depicts typical transition points from the initial staffing levels to points
           when the program areas can reduce staff.


   1
     EPM eliminates or lessens immediate threats to life, public health or safety, or significant additional 

   damage to improved public or private property. 

   2
     Response begins when an emergency incident is imminent, or immediately after an event occurs and 

   encompasses the activities that address the short-term, direct effects of an incident.

   3
     The time interval during which the disaster-causing incident occurs.

   4
     FEMA or the applicant documents the scope of work and estimated cost for a project on a Project 

   Worksheet (FEMA Form 90–91); in 2011, small projects have estimated costs of less than $63,900 and

   large projects have estimated costs of that amount or more. 


www.oig.dhs.gov                                          6	                                                OIG-13-94
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Figure 3. JFO Timeline and Transition Indicators – Event Level 1 





   Source: FEMA.



   Conclusion
   FEMA deployed the appropriate number of DAEs to perform community relations work
   in response to Hurricane Irene and Tropical Storm Lee. We did not find sufficient
   evidence to substantiate the allegation that FEMA Headquarters deployed community
   relations personnel to a Joint Field Office that did not need them.


   Recommendations
   We are not making any recommendations.


   Management Comments and OIG Analysis
   FEMA concurs with the report and its conclusion.

www.oig.dhs.gov                               7                                 OIG-13-94
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We initiated this performance audit from a complaint alleging that FEMA Headquarters
   deployed community relations personnel, many with insufficient training, to a JFO that
   did not need them. Our objective was to determine the extent to which FEMA deployed
   the appropriate number of DAEs to perform community relations work in response to
   Hurricane Irene and Tropical Storm Lee. To achieve this objective, we obtained FEMA
   DAE deployment data for August 2011 through February 2012 and analyzed the data to
   determine whether the number of deployments was consistent with FEMA staffing level
   guidance for achieving efficient JFO operations.

   To validate the reliability of data, when necessary and practicable, we compared the
   data with source documents and other records independent of FEMA’s Automated
   Deployment Database system, such as DAE travel authorizations and vouchers, JFO
   timekeeping records, and FEMA financial records. We believe, within the scope of this
   audit, that we can reasonably rely on the data.

   To gain an understanding of the basis for the complaint and circumstances surrounding
   the deployment of DAEs to perform community relations work, we interviewed officials
   from FEMA’s Office of Federal Disaster Coordination; Office of External Affairs; Incident
   Workforce Management Office, FEMA Region II; and New Jersey and New York JFOs. To
   the extent practicable, we corroborated FEMA officials’ assertions with copies of email
   traffic. We also reviewed the results of prior audits and FEMA after-action reports.

   To gain an understanding of the policies and procedures governing DAE deployments in
   response to Hurricane Irene and Tropical Storm Lee, we interviewed FEMA officials and
   reviewed the following documents: FEMA Operations Order #16-2011; FEMA
   Operations Order #18-2011; FEMA Instruction 8600.1, Disaster Assistance Employee
   Program; JFO Activation and Operations Interagency Integrated Standard Operating
   Procedure; JFO Activation and Operations Interagency Integrated Standard Operating
   Procedure Appendixes and Annexes; Emergency Support Function #15 Standard
   Operating Procedures; FEMA External Affairs, Cadre Management – Standard Operating
   Procedure; FEMA Region III Activation / Deployment Standard Operating Procedure;

www.oig.dhs.gov                                8                                       OIG-13-94
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   FEMA Deployment of FEMA Personnel memorandum; FEMA 1-99 Director's Policy –
   Disaster Cadre Guidance and Direction memorandum; FEMA Temporary Suspension of
   Disaster Reservists’ Deployment Limits memorandum; FEMA Implementation of the
   National Incident Management System and Incident Command System during Response
   and Recovery Operations memorandum; and FEMA’s Achieving Efficient JFO Operations
   Guide. 5

   We conducted this performance audit between March and November 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   conclusions based upon our objectives. We believe that the evidence obtained provides
   a reasonable basis for our conclusions based upon our objectives.




   5
    The FEMA Administrator issued the guide in November 2010. It establishes a standard, operational, JFO-
   based definition of administrative costs; identifies the primary components that escalate JFO administrative
   costs; defines the distinctions and provides a methodology for determining event levels; provides a
   method for using event levels and key factors to determine a JFO-specific target administrative cost
   percentage and staffing profile; provides strategic management decisions and specific tactical actions to
   control costs and develop an overall JFO cost management approach; provides parameters and methods
   for monitoring, measuring, and evaluating administrative performance; and increases transparency,
   responsibility, and accountability with respect to cost.

www.oig.dhs.gov                                         9                                                OIG-13-94
                     g          .
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report

                                                                                    .S. Department ofll omd11 nd Stcurity
                                                                                   Washinglon. DC 20472




                                                                                  FEMA

                                                APR 0 8 2013

            MEMORANDUM FOR:              D. Michael Beard
                                         Assistant Inspector General
                                         Office of Emergency Management Oversight

            FROM:                        David J. Kaufman                til,~
                                         Associate Administrator for     'Jfo )
                                         Policy, Program Analysis and Intern tiona! Affairs

            SUBJECT:                      FEMA's Response to OIG Draft Report: "FEMA Deployed the
                                          Appropriate Number of Community Relations Employees in
                                          Response to Hurricane Irene and Tropical Storm Lee"- For
                                          Official Use Only - OIG Project No. 12-116-EMO-OIG.


            The Federal Emergency Management Agency (FEMA) appreciates the opportun ity to review and
            respond to the Office of inspector Generars (OIG) DRAFT REPORT: "FEMA Deployed the
            Appropriate N umber of Community Relations Employees in Response to Hurricane Irene and
            Tropical Storm Lee" - For Official Use Only- OIG Project No. 12-116-EMO-OIG.

            Your objective was to determine the extent to which FEMA deployed the appropriate number of
            Disaster Assistance Employees to perform community relations work in response to Hurricane
            Irene and Tropical Storm Lee.

            FEMA poljcy requires that, as appropriate, community relations personnel start executing their
            mission either in advance of an event or within 12 hours of an Individual Assistance declaration.
            We deployed more than 800 reservists to perform community relations work in response to
            Hurricane Irene and Tropical Storm Lee, given these disasters' magnitude and number of people
            affected. This amount is well within FEMA 's staffing level targets and compares favorably with
            the total number of reservists deployed in response to the disasters.

            OIG determined that FEMA deployed the appropriate number of employees, given the disasters'
            magnitude and extraordinary circumstances. This report has no recommendations. FEMA
            concurs with OIG's Draft Report and its conclusion.

            Again, we thank you for the opportunity to review and respond to OIG 's draft report. Should you
            have any further questions regarding our response, please do not hesitate to caJI Gary McKeon,
            FEMA Chief Audit Liaison, at 202-646-1308.


                                                                                  www.fcma &ov




www.oig.dhs.gov                                              10                                                             OIG-13-94
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   DHS FEMA Liaison
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Response
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Audit Liaison

   Congressional Oversight and Appropriations Committees, as appropriate

   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform
   House Committee on Transportation and Infrastructure

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

www.oig.dhs.gov                                 11                         OIG-13-94
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
